        REVIEW OF THE
   FEDERAL SUPPLY SERVICE’S
     QUICK-MOD PROGRAM
REPORT NUMBER A060029/F/A/V06004
         APRIL 6, 2006
               REVIEW OF THE FEDERAL SUPPLY SERVICE’S
                           QUICK-MOD PROGRAM
                  REPORT NUMBER A060029/F/A/V06004


                                   TABLE OF CONTENTS


EXECUTIVE SUMMARY...........................................................................             i

INTRODUCTION....................................................................................... 1

         Background .................................................................................... 1
         Objective, Scope and Methodology ................................................ 3

RESULTS OF AUDIT ............................................................................... 5

         Management Controls .................................................................... 5

                  Internal Controls Assessment .............................................. 5

                  Unauthorized Products ........................................................ 5

                  Price Discrepancies ............................................................. 6

                  Program Guidance............................................................... 7

CONCLUSION .......................................................................................... 9

RECOMMENDATIONS ............................................................................. 9

MANAGEMENT’S COMMENTS................................................................ 10

MANAGEMENT CONTROLS.................................................................... 10

APPENDICES

         Recommended Quick-Mod Process Flow Chart............................. A-1

         Reference Card Example ............................................................... B-1

         Management Response ................................................................. C-1

         Report Distribution.......................................................................... D-1
                     REVIEW OF THE FEDERAL SUPPLY SERVICE’S
                              QUICK-MOD PROGRAM
                        REPORT NUMBER A060029/F/A/V06004


                                EXECUTIVE SUMMARY


Purpose
This review addressed whether effective management controls exist to ensure that
the Federal Supply Service’s (FSS) Quick-Mod Program provides best value to its
Federal customers. The review also determined whether the Program should be
expanded to additional Multiple Award Schedules.

Background
The Quick-Mod Program is an experimental policy within FSS’s Information
Technology Acquisition Center (FCI). It allows contractors to modify or add
products to GSA Advantage!™ using the databases currently in place: Schedule
Input Program (SIP), Electronic Data Interchange (EDI), and Contracting Officer’s
Review System (CORS). The Program is currently being tested on special item
number (SIN) 132-8 under Schedule 70, which encompasses the purchase of IT
equipment. When the Program was originally established, 27 contractors signed
up to participate. Since then the Quick-Mod Program has been revised and the
number of participating contractors has been reduced to 15.

Results-in-Brief
For review purposes we randomly selected ten contractors from the original list of
27 participating contractors for our sample, excluding four contractors that were
used in an internal FSS review of the Program. We sampled one Quick-Mod for
each of the ten contractors, and analyzed the sample’s: (1) product descriptions to
ensure that they met the SIN 132-8 requirement; and (2) prices to ascertain
whether they were in accordance with the pricing discount or markup rates
established in the Quick-Mod agreement. We found that a lack of management
controls allowed incorrect prices and unauthorized products on GSA Advantage!™
to go undetected by COs. The review’s results show that 80 percent of the ten
Quick-Mods within the sample had pricing and / or product errors. This resulted in
customers viewing prices and products that (1) are not based upon a contractually
pre-negotiated rate, or (2) are not fair and reasonable since they exceeded the
established pricing structure. Consequently, we conclude that FSS should not
expand the Quick-Mod Program to other schedules.




                                         i
Recommendations
We recommend that the Acting Commissioner of the Federal Supply Service: (1)
develop a single point of entry database from which both contractors and COs
respectively can use to enter and verify Quick-Mods; (2) perform an internal
workload review to determine if it is reasonable to delegate Quick-Mod review
duties to personnel other than COs; and (3) provide a standard methodology for
the COs and / or other personnel, on how to perform Quick-Mod reviews.


Management Response

Management has reviewed the report and generally concurs with the report
recommendations. (1) Management agrees that a single point of entry database is
both necessary and feasible. (2) Management concurs with the need to perform
an internal workload review and will discuss the option of personnel other than
COs performing Quick-Mod review duties with legal counsel. (3) Management
agrees that a standard methodology must be established and will work with the
Office of the Chief Acquisition Officer (OCAO) to do so.




                                       ii
                          REVIEW OF THE FEDERAL SUPPLY SERVICE’S
                                   QUICK-MOD PROGRAM
                          REPORT NUMBER A060029/F/A/V06004


                                        INTRODUCTION

Background

Under the General Services Administration (GSA) Schedules (also referred to as
Multiple Award Schedules - MAS) Program, GSA establishes long-term
government-wide contracts with commercial firms. This provides access
to over 10 million commercial supplies and services that customer agencies can
order directly from GSA Schedule contractors or through GSA Advantage!™1.
Under the MAS Program, a contractor is required to submit a modification
proposal to the Contracting Officer (CO), who must review the proposal prior to
contract modification approval. Contractors must submit their catalogs
electronically via Electronic Data Interchange (EDI)2 or the Schedule Input
Program (SIP)3 to have it displayed on GSA Advantage!™. Under the traditional
contract modification process, contractors upload product catalogs onto SIP or
EDI, which then transmits these files to the Contracting Officer’s Review System
(CORS)4. CORS then forwards the contractors’ files to the appropriate CO for
review and approval. After a CO has approved the contractor’s product file, it is
uploaded to GSA Advantage!™. Currently, FSS is conducting a test program that
would bypass the approval requirements found in the traditional contract
modification process.

The Quick-Mod Program is an experimental policy within the FSS’s Information
Technology Acquisition Center (FCI). Quick-Mod’s purpose is to allow contractors
to modify or add products to GSA Advantage!™ without CO approval. Contractors
can only do this within contractually established pre-approved catalog categories
and pricing structures. FSS Acquisition Letter FX-03-6 instituted the Program on
December 19, 2003 in response to the need of customers to have access to the
most current information technology (IT) products. The Quick-Mod Program is not

1
  GSA Advantage!™ is the Federal Government’s premier on-line catalog, information, and
ordering system which gives Federal customers the ability to quickly search, compare and order
those products and services which best meet their needs.
2
  Electronic Data Interchange (EDI) is the computer-to-computer exchange of business
information using a public standard.
3
  The Schedules Input Program (SIP) software can be downloaded from the GSA Vendor
Support Center website. SIP is a client-side application that allows contractors to import/input then
upload all contract and product data for inclusion on GSA Advantage.
4
  The Contracting Officer’s Review System (CORS) receives contractors’ product files from
SIP/EDI and uploads the data to GSA Advantage!™. The Acquisition Operations and Electronic
Commerce Center (FCS) and the Office of Federal Supply Service Information Systems (FI) are
responsible for administering CORS.


                                                 1
a database and does not require any new software to be created or used by the
General Services Administration (GSA). Instead, the Program works with
databases that are currently in place: SIP, EDI, and CORS. The Program is being
tested on one special item number (SIN) 132-8, under Schedule 70. SIN 132-8
encompasses the purchase of IT equipment and includes, but is not limited to:
network equipment, laptop computers, notebook computers, storage devices,
communications equipment, and printers. The Quick-Mod Program attempts to
duplicate the momentum of the commercial IT market.

Participating contractors were required to sign a Quick-Mod agreement that
authorized them to use the Quick-Mod Program for hardware products under SIN
132-8. Within the agreement the contractor provided its pricing structure, which is
the markup or discount rates off cost or list prices. Once the agreement was
signed, the contractor must enter its “baseline file” onto GSA Advantage!™ via SIP
or EDI. This file contains all product descriptions and pricing for currently awarded
products under SIN 132-8. Once the “baseline file” is submitted, contractors can
begin sending Quick-Mod files flagged with a “TR” prefix to SIP / EDI. SIP / EDI
transfers the “TR” file to CORS. CORS has been programmed to recognize that
the “TR” file does not require CO approval before being placed on GSA
Advantage!™. CORS uploads the file onto GSA Advantage!™ (see Appendix A).

Each time contractors submit a Quick-Mod file, they must provide the CO with an
electronic Quick-Mod spreadsheet itemizing the changes contained in the “TR” file
(see Appendix A). The spreadsheet must include, but is not limited to: product
name and model numbers; product description; cost or list price; markup or
discount rate; the type of modification action (e.g., product addition, price increase,
or price decrease); and the product price charged to customer agencies. One
Quick-Mod may include modifications for an unlimited number of products, but is
limited to one modification for each product within a single Quick-Mod. It is the
CO’s responsibility to review the information in the spreadsheets to verify that
contractors are adhering to the Program guidelines and the pricing structure per
the Quick-Mod agreement.

In 2004, twenty-seven contractors signed-up to participate in the Quick-Mod
Program when it was first instituted. They were required to submit monthly Quick-
Mod spreadsheets to COs, detailing all the changes that had occurred within that
thirty day time period. Even though contractors could only make one modification
per product in a Quick-Mod, they were not limited to the number of Quick-Mods
that could be submitted in one day, week, month, etc. Consequently, there was no
guarantee that the all the modifications listed in the spreadsheet were the most
recent for the correlating product. Therefore, whenever a CO reviewed a product
within a contractor’s monthly spreadsheet, the selected product change might not
have agreed to GSA Advantage!™ if subsequent modifications had been made.
In 2005, the Commercial Acquisition Policy Branch (FXAMC) reviewed the
Program and issued an unofficial report. Their review focused on four of the


                                          2
participating contractors and disclosed that all four had price discrepancies and
missing data in the Quick-Mod spreadsheets. Based upon their review, FCI met
with the twenty-seven contractors and respective COs to clarify the Quick-Mod
process, establish policy revision requirements, and introduce the current Quick-
Mod submission format. The revision limited contractors to submitting one Quick-
Mod file per week, and within two days of the Quick-Mod the contractors must
provide an electronic spreadsheet detailing the changes for the COs’ review. COs
must verify that contractors only entered information for products authorized under
SIN 132-8 and that they used prices based upon the contractual markup and / or
discount rates. As of September 2005, 15 contractors signed the revised
agreement, six contractors are still pending, five contractors withdrew from the
Program, and one contractor was terminated from the Program.

Objective, Scope, and Methodology

The audit objectives were:
   (1) Do effective management controls exist over the Quick-Mod Program to
       ensure that GSA’s Federal customers receive the best value; and if not,
       why?
   (2) Should Quick-Mod be expanded to include additional schedules; and if not,
       why?

To accomplish our objective, we spoke with cognizant FSS associates regarding
the Quick-Mod Program. Additionally, we randomly selected nine out of the
fourteen COs participating in the Quick-Mod Program to interview. We also
examined the following documentation:
           FSS Acquisition Letter FX-03-6, Supplement 1;
           Contract Clause I-FSS-598;
           Federal Acquisition Regulation (FAR) 52.212-4(m);
           General Services Administration Acquisition Manual (GSAM)
            552.215-71, “Examination of Records;”
           GSAM 552.243-72, “Modifications;”
           GSAM 552.238-75, “Price Reductions;”
           Internal document, “Quick-Mod Review Report,” undated; and
           Internal document, “Quick-Mod Plan,” dated June 2005.


For review purposes, we separated the 27 participating contractors into three
categories (e.g., high, mid, and low) based upon their FY 2005 sales volume. The
high sales volume category includes contractors with sales volumes over $10
million; the mid sales volume category includes contractors with a sales volumes
of $1,000,001 to $10 million; and the low sales volume category includes
contractors with sales volumes up to $1 million. We excluded the four contractors
used in FXAMC’s review when we randomly selected ten contractors for our
sample. The sample’s selection included four contractors from the high, four from
the mid, and two from the low sales volume categories (see Exhibit 1). For each



                                         3
contractor selected, we reviewed one Quick-Mod spreadsheet submitted during
FY 2005. We examined the contractor’s listed products, prices, and
manufacturers under Quick-Mod.

                                   Exhibit 1.
                              Sample’s Contractor
                             FY 2005 Sales Volume
                                                     Dollar Sales
                                   Dollar Sales
                Contractor                             Volume
                                     Volume
                                                        Level
                     A               $245,600,893        High
                     B                $75,246,804        High
                     C                $69,577,823        High
                     D                $28,495,229        High
                     E                 $9,690,219        Mid
                     F                 $8,075,706        Mid
                     G                 $2,463,655        Mid
                     H                 $2,354,866        Mid
                     I                   $600,217        Low
                     J                    $73,580        Low

The number of products within each Quick-Mod spreadsheet ranged from ten to
approximately 2,000 products. Of the ten contractors we selected in our sample,
we tested 100% of the 1,955 products listed in eight Quick-Mod spreadsheets.
Due to PDF formatting and missing data, we were unable to review 100 percent of
the two remaining contractors’ spreadsheets. Instead, we tested approximately
ten percent of the 3,286 products listed. We reviewed a total of 2,109 products
found in ten Quick-Mod spreadsheets.

The review assessed the price and product data contained in the spreadsheets
and on GSA Advantage!™. We evaluated prices to ascertain whether they were in
accordance with the pricing discount or markup rates established in the Quick-Mod
agreement. We reviewed product descriptions to ensure that they met SIN 132-8
requirements. Using the discount / markup rate stated in the Quick-Mod
agreement along with the cost / price listed in the contractor’s spreadsheet, we
determined the “price” that should be listed in GSA Advantage!™ as the customer
price. We compared this customer price to the price listed on both the Quick-Mod
spreadsheet and GSA Advantage! ™.

Fieldwork was conducted within the Contract Management Center (FX) and the
Office of Acquisition (FC) between October 2005 and January 2006. The audit
was performed in accordance with generally accepted government auditing
standards.



                                       4
                  REVIEW OF THE FEDERAL SUPPLY SERVICE’S
                              QUICK-MOD PROGRAM
                     REPORT NUMBER A060029/F/A/V06004


                               RESULTS OF AUDIT

The Quick-Mod Program requires contractors to submit to GSA Advantage!™
accurately priced hardware products approved under SIN 132-8 to ensure that
customers receive best value. We found that a lack of management controls
allowed incorrect prices and unauthorized products on GSA Advantage!™ to go
undetected. This resulted in customers potentially viewing products and prices
that (1) were not based upon a contractually pre-negotiated rate, or (2) were not
fair and reasonable since they exceeded the established pricing structure. The
Program requires contracting officers (COs) to review those submissions on a
sample basis, yet does not provide sufficiently detailed guidance on how to
perform reviews. Clear guidance would help mitigate the risk of COs not being
able to detect pricing errors and unauthorized products placed on GSA Advantage!
™ by the contractors. Consequently, we conclude that FSS is not ready to expand
the Quick-Mod Program to other schedules.

Management Controls

Internal Controls Assessment

COs are required to review Quick-Mods and are the single internal control
mechanism to ensure that contractors are adhering to the Quick-Mod Program
requirements. However, we found that the COs either did not effectively review
the Quick-Mods or chose not to perform reviews at all. As a result of these
conditions, 80 percent of the 10 Quick-Mods sampled had unauthorized products
and / or incorrect prices. Consequently, customer agencies had access to
products with non-negotiated prices via GSA Advantage!™. The COs who
performed Quick-Mod reviews did not detect unauthorized products and / or
incorrect prices, because: (1) they did not sample products with these errors; (2)
they sampled unauthorized products but did not assess the product descriptions;
or (3) they sampled products with incorrect prices but relied on the contractors’
incorrect calculations. In our opinion, supervisory oversight and review would help
to ensure that COs were effectively reviewing Quick-Mods for product descriptions
and prices.

Unauthorized Products

During the review, we analyzed ten Quick-Mod spreadsheets and corresponding
GSA Advantage!™ data for compliance with the SIN 132-8 requirement. We found
that six out of the ten Quick-Mods had unauthorized products. We determined that


                                         5
the number of unauthorized products within each Quick-Mod file ranged between
six and seventy percent. Of the six, four files had unauthorized products
amounting to ten percent or more of the entire file’s products (see Exhibit 2). We
were able to group the unauthorized products into five major categories: software,
licenses, maintenance, training, and miscellaneous. The miscellaneous category
contained diverse non-hardware products that did not easily fit into the other four
categories. Examples of some of the products that fell into this category include:
1-year, next business day on-site packages; overnight exchange warranty
extension packages; multiple year onsite repair packages; multiple year
subscriptions to software packages; and base service contracts. Thirty-seven
percent of the unauthorized products were software, twelve percent were licenses,
three percent were maintenance, six percent were training, and forty-two percent
were miscellaneous products. When unauthorized products were listed on GSA
Advantage!™, customers were viewing products for which there was no
contractual pricing structure. Consequently, there is no guarantee that customers
were viewing best value for these unauthorized products. COs need to carefully
review product descriptions to ensure that unauthorized products are not allowed
to stay on GSA Advantage!™.

                        Exhibit 2. Range of Unauthorized
                           Products Contained in the
                            Quick-Mod Submissions
                 Range of Unauthorized             Number of
                  Products within each           Quick-Mod Files
                      Quick-Mod
                       (Percent)
                          6-9                            2
                        10 - 30                          2
                        31 - 60                          1
                        61 - 70                          1

Price Discrepancies

During the review, we analyzed ten Quick-Mod spreadsheets and corresponding
GSA Advantage!™ data for adherence to the Quick-Mod agreement’s contractual
pricing structure. We found that six out of the ten Quick-Mods had prices listed on
GSA Advantage!™ that exceeded the contractually agreed-upon pricing structure.
When comparing what the price should have been to the price on GSA
Advantage!™, we determined that the Quick-Mods containing price errors had
percent differentials ranging from less than one to 9900 percent. Of those six, half
had price discrepancies with a percent differential greater than one. The following
list contains some examples of incorrect pricing issues that occurred within the
three files that had a percent difference greater than one.



                                         6
      Contractor “D” incorrectly priced a duplex zip jumper at $1 on its Quick-Mod
       spreadsheet and uploaded a price of $36 onto GSA Advantage!™. The
       actual price should have been $0.36. The GSA Advantage!™ price had a
       9900 percent discrepancy from the correct price. The contractor has
       removed the product from the GSA Advantage!™ since we performed our
       testing. For a rack mount kit, the contractor again listed an incorrect price
       of $164 on its Quick-Mod spreadsheet and uploaded a price of $180 onto
       GSA Advantage!™. The actual price based on our calculation should have
       been $155.86. The GSA Advantage!™ price had a 15 percent discrepancy
       higher than the correct price.

      Contractor “I” did not document the price it would charge GSA on its Quick-
       Mod spreadsheet, which is counter to the revised Quick-Mod policy. For a
       digital telephone user guide, the correct price should have been $8.63; the
       GSA Advantage!™ price was $9.00. Though the monetary amounts are
       small, there was a 4 percent higher difference.

      Contractor “J” correctly priced a tape cartridge for $2,691.75 on its Quick-
       Mod spreadsheet, yet uploaded onto GSA Advantage!™ $3,746.15. This
       error represented a 39 percent difference. For a component adapter, it
       again listed a correct price of $18.47 on its Quick-Mod spreadsheet, but
       uploaded $39.25 onto GSA Advantage!™. There is a 112 percent higher
       difference.

The review found that Quick-Mod spreadsheets containing correct prices did not
guarantee that the correlating prices listed on GSA Advantage!™ were also correct
(e.g., contractor “J” mentioned above). When incorrect prices are listed on GSA
Advantage!™, customers are charged excessive prices that can reduce their
purchasing power. In our opinion, COs need to use their own calculations to
identify what a product’s actual price should be when reviewing the prices listed on
GSA Advantage!™.

Program Guidance

FSS Acquisition Letter FX-03-6 requires COs to review Quick-Mods. However, the
majority of COs we interviewed felt they did not have sufficiently detailed guidance
on how to accomplish this requirement. As a result, COs did not understand what
their duties were under the Program and did not perform effective Quick-Mod
reviews. During the audit, we interviewed nine COs participating in the Quick-Mod
program about the Quick-Mod Program, CO responsibilities, and Quick-Mod
reviews. We found a correlation between a CO’s understanding of their role in the
Quick-Mod Program to the number of errors that went undetected in the Quick-
Mods. Based upon interviews and evaluation results, we formulated a matrix
categorizing the COs’ understanding of: Quick-Mod Program, COs’



                                          7
      responsibilities, and COs’ review procedures (see Exhibit 3). We found that COs
      have a stronger understanding of the Quick-Mod Program itself than of their
      responsibilities and review procedures. Seventy-seven percent of the COs
      interviewed had a general or strong understanding of the Quick-Mod Program.
      Forty-four percent had a general or strong understanding of their responsibilities
      and duties under the Program. Thirty-three percent of the COs interviewed had a
      general or strong understanding of the Quick-Mod submission review concept (see
      Exhibit 4). A standard methodology detailing how to perform reviews would
      mitigate this situation. Moreover, a policy advising COs on how to identify and
      handle contractors abusing the Quick-Mod to circumvent the traditional contract
      modifications process would also be beneficial.


                                           Exhibit 3.
                                   Defining of Understanding
                                                                                            Strong
                     Did Not Understand             General Understanding
                                                                                         Understanding
                                                     The CO understands at least
                                                    one of the following aspects of   The CO understands: (1)
                                                     the Quick-Mod Program: (1)       Quick-Mod's purpose; (2)
  Quick-Mod        The CO does not understand
                                                    Quick-Mod's purpose; (2) how       how it operates; and (3)
   Program         the purpose of the Program.
                                                        it operates; and (3) the      the procedural aspects of
                                                       procedural aspects of the            the Program.
                                                               Program.

                     The CO either understands                                        The CO (1) understands
                                                        The CO understands his/her
                      his/her duties and doesn't                                      his/her duties under the
    CO’s                                                duties under the Quick-Mod
                     perform them; or does not                                        Quick-Mod Program and
Responsibilities                                        Program but is not applying
                   understand his/her duties and                                       (2) how to apply those
                                                              them accurately.
                    thus does not perform them.                                                duties.

                     Either one of the following
                    exists: (1) The CO performs                                         The CO reviews price
                                                     The CO reviews price and/or
                      inadequate reviews of the                                        and product for both the
                                                    product for both the Quick-Mod
                    Quick-Mod spreadsheet and                                          Quick-Mod spreadsheet
 CO’s Review                                            spreadsheet and GSA
                    the Quick-Mod spreadsheet                                          and GSA Advantage!™
 Procedures        reviewed has both pricing and     Advantage!™, but the Quick-
                                                                                      and there are no errors in
                    product issues; or (2) the CO   Mod spreadsheet has product
                                                                                           the Quick-Mod
                    does not perform a review of         or pricing problems.
                                                                                            spreadsheet.
                            spreadsheets.




                                                    8
                                            Exhibit 4.
                                 Matrix of COs’ Understanding

                   Did Not Understand       General Understanding       Strong Understanding
                       (No. of COs)             (No. of COs)                 (No. of COs)


  Quick-Mod
                             2                          4                           3
   Program


    CO’s
                             5                          1                           3
Responsibilities



 CO’s Review
                             6                          2                           1
 Procedures




       Conclusion

       The lack of management controls over the Quick-Mod Program enabled
       unauthorized products and incorrect prices to be placed on GSA Advantage!™
       without detection. When errors occur, customers are not guaranteed best value
       on GSA Advantage!™. The review’s results show that 80 percent of the 10 Quick-
       Mods reviewed had errors that show contractors’ non-compliance with the
       Program. Contractors have been made aware of the policy condition, accordingly
       they either mistakenly entered incorrect data or purposefully abused the Quick-
       Mod Program. The results of the review illustrate that the Program’s inherent
       “trust factor,” which necessitates COs to trust contractors to comply with
       guidelines, puts both GSA and its customers in a precarious position. Detailed
       guidelines on how to identify and handle errors would help mitigate the risk. At
       this time, however, customers have access to products that (1) are not based
       upon a contractually pre-negotiated rate, or (2) are not fair and reasonable since
       they exceeded the established pricing structure. Consequently, we feel that FSS
       should not expand the Quick-Mod program beyond Schedule 70 SIN 132-8.

       Recommendations

       We recommend that the Acting Commissioner of the Federal Supply Service:

          1. Develop a single point of entry database from which both contractors and
             COs respectively can use to enter and verify Quick-Mods. This eliminates


                                               9
      the need for contractors to submit a separate spreadsheet to COs which is
      not linked directly to data placed on GSA Advantage!™.

   2. Perform an internal workload review to determine if it is reasonable to
      delegate Quick-Mod review duties to personnel other than COs. FX and FC
      should discuss the viability of this option with FSS and / or GSA’s legal
      counsel.

   3. Provide a standard methodology for the COs and / or other personnel, on
      how to perform Quick-Mod reviews. Institute supervisory oversight to
      oversee the CO’s implementation of the guidance. Possibly create a
      reference card that quickly lists what these steps entail (see example in
      Appendix B).

   4. Institute a policy that contractors who make repeated mistakes are
      reviewed on a case-by-case basis to determine if they should still be
      included in the Quick-Mod Program.

   5. Institute a policy that, after COs identify blatant abuse of the Quick-Mod
      Program, allow them to remove a contractor from the Program.

   6. Institute a third party or quality control review of the Quick-Mod Program.


Management Response

Management has reviewed the report and generally concurs with the report
recommendations.

   1. Management agrees that a single point of entry database is both necessary
      and feasible. However, in their opinion, the recommendation cannot be
      executed until they review the technical issues pertaining to implementation
      of the database.

   2. Management concurs with the need to perform an internal workload review
      and will discuss the option of personnel other than COs performing Quick-
      Mod review duties with legal counsel.

   3. Management agrees that a standard methodology must be established and
      will work with the Office of the Chief Acquisition Officer (OCAO) to do so.

   4. Management strongly concurs that contractors with poor performance need
      to be reviewed on a case-by-case basis to determine continued eligibility
      within the Quick-Mod Program and will work with OCAO on this issue.




                                        10
   5. Management agrees that a policy needs to be instituted to manage
      contractors who blatantly abuse the Quick-Mod Program and will work with
      OCAO on this issue.

   6. Management concurs that a third party or quality control review is
      necessary and will ask that OCAO examine the Quick-Mod Program in their
      annual Procurement Management Reviews (PMRs).


Management Controls

As discussed in the Objective, Scope and Methodology section of this report, the
audit focused on aspects of the Quick-Mod Program. Related management
control issues are discussed in the context of the audit findings and addressed by
the recommendations provided above.




                                        11
REVIEW OF THE FEDERAL SUPPLY SERVICE’S
         QUICK-MOD PROGRAM
REPORT NUMBER A060029/F/A/V06004




          APPENDICES
                                 REVIEW OF THE FEDERAL SUPPLY SERVICE’S
                                          QUICK-MOD PROGRAM
                                 REPORT NUMBER A060029/F/A/V06004


  APPENDIX A

                             Current Quick-Mod Process Flow Chart




                                             Contractor




                 Enter
                 “TR” file                                                Send
                 into SIP                                                 spreadsheet
                 or EDI                                                   to CO




                  CORS
                                                                           CO Reviews
                                                                           Quick-Mod




               GSA Advantage!™
CUSTOMERS


                                                A-1
                        REVIEW OF THE FEDERAL SUPPLY SERVICE’S
                                 QUICK-MOD PROGRAM
                        REPORT NUMBER A060029/F/A/V06004


APPENDIX B


                               Reference Card Example


                                     Example Steps*:


                1.) Select a Quick-Mod sample per the Program’s
                    agreed-upon sampling methodology.

                2.) Review the sample’s product descriptions to ensure
                    that all products fall under the SIN 132-8 criteria.

                3.) Review the sample’s prices.

                4.) If unauthorized products or incorrect prices
                    exceeding the pricing structure are detected, take
                    actions stated in the Quick-Mod policy.

                5.) Document and save the review for supervisory
                    oversight and review purposes.



             *FSS management should determine the steps necessary to perform a
             review and what should be included on a reference card. The review
             steps listed above are for demonstration purposes only.




                                             B-1
             REVIEW OF THE FEDERAL SUPPLY SERVICE’S
                      QUICK-MOD PROGRAM
             REPORT NUMBER A060029/F/A/V06004


APPENDIX C

                  Management Response




                            C-1
REVIEW OF THE FEDERAL SUPPLY SERVICE’S
         QUICK-MOD PROGRAM
REPORT NUMBER A060029/F/A/V06004

  (Management Response cont.)




               C-2
REVIEW OF THE FEDERAL SUPPLY SERVICE’S
         QUICK-MOD PROGRAM
REPORT NUMBER A060029/F/A/V06004

  (Management Response cont.)




               C-3
REVIEW OF THE FEDERAL SUPPLY SERVICE’S
         QUICK-MOD PROGRAM
REPORT NUMBER A060029/F/A/V06004

  (Management Response cont.)




               C-4
                            REVIEW OF THE FEDERAL SUPPLY SERVICE’S
                                  QUICK-MOD PILOT PROGRAM
                            REPORT NUMBER A060029/F/A/V06004


APPENDIX D


                                        Report Distribution



Acting Commissioner, Federal Supply Service (F)................................................3

Audit Follow-up and Evaluation Branch (BECA) ...................................................1

Assistant Inspector General for Auditing (JA, JAO) ..............................................2

Assistant Inspector General for Investigations (JI) ...............................................1

Office of the Chief Financial Officer (B) ................................................................2




                                                    D-1
